<html>
<title> - RURAL AMERICAN RECOVERY: THE ROLE OF SMALL BUSINESSES AND ENTREPRENEURSHIP</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                  RURAL AMERICAN RECOVERY: THE ROLE OF 
                  SMALL BUSINESSES AND ENTREPRENEURSHIP

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JULY 13, 2021

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 117-024
             Available via the GPO Website: www.govinfo.gov
             
                                __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-125                       WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------             
          
             
                      HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                          JARED GOLDEN, Maine
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                        DEAN PHILLIPS, Minnesota
                         MARIE NEWMAN, Illinois
                       CAROLYN BOURDEAUX, Georgia
                         TROY CARTER, Louisiana
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                          ANDY KIM, New Jersey
                         ANGIE CRAIG, Minnesota
              BLAINE LUETKEMEYER, Missouri, Ranking Member
                         ROGER WILLIAMS, Texas
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        DAN MEUSER, Pennsylvania
                        CLAUDIA TENNEY, New York
                       ANDREW GARBARINO, New York
                         YOUNG KIM, California
                         BETH VAN DUYNE, Texas
                         BYRON DONALDS, Florida
                         MARIA SALAZAR, Florida
                      SCOTT FITZGERALD, Wisconsin

                 Melissa Jung, Majority Staff Director
            Ellen Harrington, Majority Deputy Staff Director
                     David Planning, Staff Director
                           
                           
                           C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jared Golden................................................     1
Hon. Roger Williams..............................................     3

                               WITNESSES

Mr. Nathan Ohle, Chief Executive Officer, Rural Community 
  Assistance Partnership, Washington, DC.........................     6
Ms. Jessica Campos, Women's Business Center Director, Center for 
  Rural Affairs, Lyons, NE.......................................     8
Mr. Brett Challenger, Senior Vice President of the Regional 
  Agribusiness Banking Group, CoBank, Greenwood Village, CO......     9
Mr. Alan M. Crawford, Owner and President, Rangaire Manufacturing 
  Company, Cleburne, TX..........................................    11

                                APPENDIX

Prepared Statements:
    Mr. Nathan Ohle, Chief Executive Officer, Rural Community 
      Assistance Partnership, Washington, DC.....................    22
    Ms. Jessica Campos, Women's Business Center Director, Center 
      for Rural Affairs, Lyons, NE...............................    27
    Mr. Brett Challenger, Senior Vice President of the Regional 
      Agribusiness Banking Group, CoBank, Greenwood Village, CO..    29
    Mr. Alan M. Crawford, Owner and President, Rangaire 
      Manufacturing Company, Cleburne, TX........................    36
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Main Street America..........................................    39
    National Association of Federally-Insured Credit Unions 
      (NAFCU)....................................................    42

 
       RURAL AMERICAN RECOVERY: THE ROLE OF SMALL BUSINESSES AND 
                            ENTREPRENEURSHIP

                              ----------                              


                         TUESDAY, JULY 13, 2021

              House of Representatives,    
               Committee on Small Business,
                       Subcommittee on Underserved,
              Agricultural, and Rural Business Development,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 12:59 p.m., via 
Zoom, Hon. Jared Golden [chairman of the Subcommittee] 
presiding.
    Present: Representatives Golden, Delgado, and Williams.
    Chairman GOLDEN. Good afternoon. I call this hearing to 
order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    I would like to begin first by thanking Representative 
Williams for joining me today in the capacity of Ranking Member 
for the Subcommittee, filling in for Congressman Hagedorn, who 
I normally sit beside at all these hearings. I think it is okay 
to say, given his public statements, that, you know, we are 
thinking of him, the entire Congress, the entire Committee, and 
I know staff as well want to send him our very best wishes. And 
I will personally offer him all my prayers and very best wishes 
[inaudible] soon, and all our best wishes for his health and 
well-being.
    And, Mr. Williams, thanks for joining us today.
    First things first, I will point out a couple of 
housekeeping issues. House and Committee rules and practices 
continue to apply when we are having remote proceedings. This 
means all members should expect to--or are expected to adhere 
to the standing rules, including those around decorum, when 
participating in remote events.
    With that said, the technology we are using today requires 
some small modifications to ensure that members can fully 
participate in these proceedings. House regulations require 
members to be visible through video connection throughout the 
proceeding, so keep your cameras on. And if you have to 
participate in another proceeding, please exit and log back in 
later.
    In the event a member encounters technical issues that 
prevent you from being recognized for questioning, I will move 
to the next available member of the same party and will 
recognize that member at the next appropriate time spot.
    Should a member's time be interrupted by technical issues--
hold on, that is just a repeat.
    In the event that a witness loses their connectivity during 
testimony or questioning, I will preserve their time as staff 
work with them to try and fix the technical issue. We may need 
to recess the proceedings to provide time for the witness to 
reconnect.
    And finally, remember to remain muted until you are 
recognized in order to help minimize background noise. In 
accordance with the rules, staff have been advised to mute 
participants only when there is inadvertent background noise 
that is disrupting the hearing.
    Should a member wish to be recognized, they need to unmute 
themselves and seek recognition at the appropriate time.
    With that, I will provide an opening statement.
    The health of the economy in rural communities is strongly 
tied to the overall well-being of the American economy. Rural 
areas hold the vast majority of our country's land and supply 
the rest of the country with the food, water, and energy we 
depend on.
    And yet, as a Representative of one of the most rural 
districts in the country, I have seen many examples of the way 
rural communities are ignored by the Federal Government and 
left out of the national political debate.
    Even when Washington discusses rural America, rural 
Americans themselves are provided little opportunity to give 
their actual input. They are essentially often the subject of 
debate rather than leading the debate themselves. As a result, 
the Federal Government often makes half-hearted attempts to 
spur economic development in rural communities.
    Programs are targeted more towards urban and suburban 
areas--where the money is--without much thought for how those 
programs impact rural communities or could be changed to better 
help rural business owners, like farmers, small-scale 
manufacturers, fishermen, loggers here in Maine, and there are 
many other examples all over the country.
    The Office of Rural Affairs within the Small Business 
Administration is a classic symbol of how the Federal 
Government and Congress often fails in its commitment to rural 
America. As a good friend of mine is known to say about 
politics and government, too often when all is said and done, 
more will be said than done.
    The SBA Office of Rural Affairs was first established in 
1990, during the first Bush administration, to provide 
information and assistance to rural businesses. However, the 
office has been left largely vacant since 2005.
    When I arrived in Congress in 2019, I was upset to learn 
that the office was dormant, and worked with a group of like-
minded members on this Committee to raise the issue with the 
Trump administration. The administration was receptive and 
became the first in nearly 15 years to devote resources to the 
office.
    Given that the office has been either empty or widely 
under-resourced for years, it is no wonder that one of the 
problems I hear most about SBA from rural small business owners 
in my district is that they just don't know much about their 
services, such as Small Business Development Centers or SCORE 
partnership, or believe that their loans, SBA loans that is, 
aren't competitive or come with too many bureaucratic strings 
attached.
    I was encouraged that the acting director of the office was 
able to hire additional staff in 2020, thanks to funding from 
the CARES Act. Congress should provide the office with a 
dedicated funding authorization to build on what was 
accomplished in 2019 and 2020, rather than fading away again to 
leave rural businesses without an advocate within the SBA.
    This office can and should play an important role in 
connecting rural Americans to programs and services that can 
help their businesses and subsequently help their communities. 
It should also play a role in bringing feedback from rural 
businesses back to the SBA headquarters, regionally and 
nationally, so that it can make improvements to better serve 
these important businesses.
    I hope that today's hearing can help provide us with 
feedback on how we can strengthen the Office of Rural Affairs 
and other initiatives to support rural businesses. I see the 
same value in the office that the Trump administration saw and 
that members in this Committee in the last Congress saw. And I 
believe that this work is long overdue and important to so many 
communities across the country.
    I look forward to working with my colleagues on this 
Subcommittee to continue to ensure that rural communities get 
the attention and support that they deserve.
    I would now like to yield to Mr. Williams for his opening 
statement.
    Mr. WILLIAMS. Thank you, Mr. Chairman, Chairman Golden. I 
want to thank you for allowing me to fill in for Ranking Member 
Hagedorn, who we are all praying for as we sit here today.
    Today's hearing is of the utmost importance as we are going 
to be exploring the Nation's rural small businesses, how they 
have fared under COVID-19, and what they face moving forward.
    Despite their strong work ethic and dedication, America's 
small businesses, entrepreneurs, and start-ups faced extreme 
challenges dealing with COVID-19 and the State and local 
shutdown measures that followed.
    Without having the ability to make safe, sound, and prudent 
business decisions, mandates were handed down that caused 
businesses to change their operations or even close.
    Thankfully, Congress worked with former President Trump to 
enact and activate a number of critically important small 
business relief programs, including the quick-moving Paycheck 
Protection Program.
    These relief programs, combined with States opening up, 
started a sequence of events that provided small businesses 
with the opportunity to look toward recovery. Unfortunately, 
not all States have maintained the same speed of reopening. 
However, in my State of Texas, we had the benefit of opening up 
quickly, and we are seeing results as compared to those States 
that have stayed closed for a longer period of time.
    Moreover, as the country opens back up, small businesses 
are now faced with a set of difficult realities. While 
historically operating on thin margins, America's Main Street 
is facing a rising new threat of inflation.
    The price of everything from gasoline to products that we 
use every day are climbing at the fastest pace we have seen in 
almost a decade. And just this morning, the government 
published new CPI numbers that shows inflation has increased to 
5.4 percent over the last 12 months.
    Additionally, labor and workforce issues continue to 
challenge business owners as they search for employees. And 
according to the Bureau of Labor Statistics, there are over 9.2 
million job openings across the Nation, and, unfortunately, 
help wanted signs are becoming all too familiar. And I can tell 
you that we see that in my business every day.
    On top of inflation and not being able to find workers, the 
Biden administration is threatening the Nation's best job 
creators with tax increases. Now, whether it is increases to 
the individual's tax rate, the corporate rate, or increasing 
capital gains tax, these changes will hurt small business 
directly and indirectly and have lasting effects for small 
businesses in my State of Texas, to Minnesota and beyond coast 
to coast.
    Instead of promoting a pro-growth environment, like we 
should be, to help small businesses recover quickly from the 
past year and a half, this administration is putting up 
roadblocks and hurdles and making small business owners very 
defensive.
    Over the past year, this Committee, and especially this 
Subcommittee, have put a focus on strengthening some of the 
Nation's COVID programs for rural small businesses. We have 
found common ground on rural issues in the past, and I look 
forward to continuing to work with my colleagues to find 
solutions for all of our rural small businesses.
    And as Members of Congress, we must work together to bring 
back the pro-growth environment that the Nation experienced 
prior to COVID-19, an environment we had not seen in many, many 
years. I hadn't seen it in the 51 years I have been in 
business.
    I look forward to today's conversation. I especially want 
to thank our witnesses for being with us. Instead of running 
their shops today, they are with us to discuss these important 
topics. I thank you for joining us, and I look forward to 
hearing from each one of you.
    And, Mr. Chairman, again, thank you, and I yield my time 
back.
    Chairman GOLDEN. Thank you, Mr. Williams.
    Take a quick moment here to explain how the hearing will 
proceed. Each witness will have 5 minutes to provide a 
statement and each Committee member will have 5 minutes for 
questions. Please ensure that your microphone is on when you 
begin speaking and that you return to mute when finished. And, 
with that, we will introduce our witnesses.
    Our first witness is Mr. Nathan Ohle, the CEO of the Rural 
Community Assistance Partnership, a national nonprofit focused 
on economic development for rural communities, assisting rural 
communities across the country as they work to build capacity 
and resiliency.
    Mr. Ohle has been a leader in economic development for more 
than a decade, serving as senior adviser at the U.S. Economic 
Development Administration under the Obama administration and 
the White House Rural Council. Thank you for joining us today.
    Our second witness is Ms. Jessica Campos of the Center for 
Rural Affairs and director of the Women's Business Center. She 
coordinates the Rural Enterprise Assistance Project.
    Ms. Campos is focused on promoting the growth of women and 
minority-owned small businesses through programs that provide 
training, technical assistance, and access to credit and 
capital. She has a background in banking and finance, including 
more than a decade of experience providing financial education 
to consumers, small business owners, and their employees. Thank 
you for joining us today.
    Our third witness is Mr. Brett Challenger, senior vice 
president of CoBank, one of the largest providers of credit to 
the U.S. rural economy. Mr. Challenger heads up CoBank's 
Regional Agribusiness Banking Group, and also has experience 
with CoBank's energy and water divisions.
    Additionally, Mr. Challenger led CoBank's efforts with SBA 
to provide PPP loans to customers, which involved developing 
the entire program from the ground up at CoBank. Thank you for 
joining us today as well.
    And now I will recognize Mr. Williams to introduce his 
witness.
    Mr. WILLIAMS. Thank you, Ranking Member and Chairman 
Golden, for extending me this opportunity to introduce one of 
our witnesses, and I am proud to introduce Mr. Alan Crawford.
    Mr. Crawford is the present owner of Rangaire Manufacturing 
Company in Cleburne, Texas, which is located right in the 
middle of my District 25 here in Texas. Rangaire Manufacturing 
Company assembles cabinetry products for homes across the 
Nation, including our military. The business started in 1948 
and was purchased by Mr. Crawford when he was an employee of 
the company in 2014. Prior to purchasing the Rangaire 
Manufacturing Company, he was in engineering and operations 
management for the business. He has truly seen this business 
from all sides.
    Mr. Crawford has been able to grow the company from 
approximately 55 workers to just under one hundred today. With 
a degree in industrial engineering and an MBA from Texas Tech 
University, Mr. Crawford has had an extensive career working in 
manufacturing, including expertise and experience with metal 
fabrication, semiconductors, and telecom.
    Now, he knows I am a TC Horned Frog; however, I can 
appreciate Texas Tech University and all of the other great 
schools and universities in my home State of Texas and people 
that they put out and help us with our economy.
    Mr. Crawford, I can't thank you enough for joining us 
today. You and I are friends, and I have been to your office 
and seen your facility. We look forward to hearing more about 
your small business experience, how your company was impacted 
by COVID-19, and the discussion on how Congress can assist in 
the recovery of the rural small businesses. Again, thank you 
for taking time out of your busy day to come educate all of us 
on this Subcommittee.
    Mr. Chairman, I turn my time back.
    Chairman GOLDEN. Thank you very much.
    We will now recognize our witnesses for 5 minutes. Mr. 
Ohle, we will start with you. You are recognized for 5 minutes.

 STATEMENTS OF MR. NATHAN OHLE, CHIEF EXECUTIVE OFFICER, RURAL 
 COMMUNITY ASSISTANCE PARTNERSHIP, WASHINGTON, DC; MS. JESSICA 
  CAMPOS, WOMEN'S BUSINESS CENTER DIRECTOR, CENTER FOR RURAL 
AFFAIRS, LYONS, NE; MR. BRETT CHALLENGER, SENIOR VICE PRESIDENT 
 OF THE REGIONAL AGRIBUSINESS BANKING GROUP, COBANK, GREENWOOD 
  VILLAGE, CO; AND MR. ALAN M. CRAWFORD, OWNER AND PRESIDENT, 
          RANGAIRE MANUFACTURING COMPANY, CLEBURNE, TX

                    STATEMENT OF NATHAN OHLE

    Mr. OHLE. Thank you, Chairman Golden, Congressman Williams, 
and members of the Subcommittee, for this opportunity to 
discuss the importance of small business and entrepreneurship 
in supporting rural communities, and how the SBA can help small 
businesses and entrepreneurs thrive in rural areas.
    My name is Nathan Ohle, and I am the CEO of the Rural 
Community Assistance Partnership. RCAP is a national network of 
nonprofit partners, providing technical assistance, training, 
and resources to rural and Tribal communities in every State, 
territory, and on Tribal lands.
    Through our regional partners, more than 300 technical 
assistance providers build capacity that strengthens rural 
economies. Our approach is grounded in long-term trusted 
relationships with thousands of rural communities across the 
country.
    Last year, RCAP served more than 3.4 million rural and 
Tribal residents in more than 2,000 rural communities with an 
average population of 1,500 and a median household income of 
half the national average. In addition, with people of color 
representing 21 percent of the rural population and 83 percent 
of rural population growth, we support a rural America that is 
increasingly diverse.
    The talent, innovation, and resiliency of America's rural 
areas will play a central role in the future of the U.S. 
economy. COVID-19 has further exacerbated the challenges rural 
communities face as they have not fully recovered yet from the 
2008 recession.
    Now is the time to drive real and sustained change. Small 
business growth is the best way to reinvigorate the economy, 
especially in rural areas. The days of chasing after one big 
manufacturer are gone, replaced by a growing need to drive 
small business growth that intentionally embeds wealth locally, 
lifting up regions in a more equitable fashion.
    According to a July 2020 survey from NPR, over 40 percent 
of rural households reported having household members that have 
been furloughed, lost a job, or had wages or hours reduced as a 
result of COVID. That same report said that over 30 percent of 
rural households had reported using all or most of their 
savings during COVID-19, including over 80 percent of Black and 
Latino households.
    Small businesses are the biggest drivers of economic growth 
in the United States, employing 47 percent of the U.S. 
workforce and generating two-thirds of new jobs. In rural 
areas, people are more likely to be small business owners, and 
these businesses tend to be more resilient than in larger 
communities.
    The SBA features a portfolio of small business lending and 
grant programs. Given that small businesses and rural 
communities are essential to the economic recovery efforts, an 
intentional focus on these programs is necessary to ensure that 
the smallest and lowest-resourced communities are not left 
behind.
    I want to thank this Committee for all that it has done to 
support rural small businesses, in particular creating the 
Paycheck Protection Program. After significant advocacy efforts 
to help fill a major gap in rural communities, community 
development financial institutions, or CDFIs, were granted the 
opportunity to become PPP lenders. Two of RCAP's regional 
partners--RCAC and Communities Unlimited--participated in PPP 
as CDFIs.
    CDFIs provide loans to small businesses, often pairing 
funding with technical assistance, helping to build capacity, 
and ensuring that those that need assistance the most receive 
it.
    For example, when Communities Unlimited began processing 
PPP loans, they were intentional about reaching out to small-
scale growers and small business owners in very rural 
communities. They immediately reached out to the Mileston 
Cooperative in Mississippi to connect these Black-owned, small-
scale growers to critical funding for their farms during the 
pandemic. More than 10 members of the Mileston Cooperative were 
approved for loans in the PPP, giving them the critical funding 
required to keep their farms during the pandemic. In total, 
RCAC and CU made 597 loans, totaling almost $29 million.
    There is still a great need, however, for additional PPP 
funds for rural small businesses, as many got left behind in 
the final days of the program. This included more than 50 
applications, totaling almost $2 million, from RCAC and CU 
alone, including many minority-owned businesses on the brink of 
closing their doors.
    Despite SBA's many successes, a substantial number of rural 
small businesses have difficulty accessing SBA programs. With 
help from experienced technical assistance providers, rural and 
Tribal small businesses can better access and manage Federal 
funds. Technical assistance plays a vital role in ensuring that 
programs serve the vulnerable small businesses they were 
designed to support. The newly created Community Navigator 
Pilot Program addresses these issues and should be made 
permanent. This program supplies grants to organizations with 
deep ties to rural communities to engage trusted, culturally 
knowledgeable field staff to conduct technical assistance and 
outreach.
    Technical assistance is key to fostering strong financial 
management which, in turn, mitigates the risk for capital 
investments, unlocking capital badly needed in these 
communities.
    In closing, the services provided through SBA deliver 
critical assistance to small and disadvantaged communities 
where it is most needed, especially as our country continues to 
respond to the COVID-19 pandemic. We must use the pandemic to 
put a stake in the ground, to start thinking innovatively about 
how we address the systemic and long-term inequities that have 
led to rural America falling behind its urban counterparts. If 
we don't, we may never make up that gap.
    I thank the Committee for inviting me to testify, and look 
forward to working with you and your colleagues on these 
important issues.
    Chairman GOLDEN. Thank you very much.
    We will now recognize Ms. Campos for 5 minutes.

                  STATEMENT OF JESSICA CAMPOS

    Ms. CAMPOS. Good afternoon, and thank you for the 
opportunity to testify today. My name is Jessica Campos, and I 
am the Women's Business Center director for the Center for 
Rural Affairs. The Center for Rural Affairs has been a leading 
force engaging people to create a better rural future since 
1973.
    The Center's history of innovative, insightful, and 
effective work for rural America provides a solid foundation 
from which we continue to build.
    We became the host organization for the Women's Business 
Center, a service funded by the SBA's Office of Women's 
Business Ownership in 2001, and this entity has functioned as 
the primary educational and technical assistance provider for 
the Center's small business development program ever since.
    Demand for the services we provide continues to grow. In 
the past 3 years alone, 2,795 aspiring or existing business 
owners have completed CFRA technical assistant programs. This 
has led to 164 business starts, 327 loans, and 557 jobs created 
or retained. During this time, CFRA staff provided 20,342 hours 
of business counseling over 16,693 sessions.
    Small business development is so important in rural 
communities. Next to agriculture, small business is the most 
critical economic engine in Nebraska. According to a 2018 SBA 
report, 47 percent of our working population work for a small 
business or are self-employed.
    Microbusiness development is especially important in rural 
areas where access to employment opportunities are limited and 
where jobs pay less. For many people, microbusinesses provide 
all or most of their household income. Self-employment provides 
up to 90 percent of all jobs in many rural Nebraska counties.
    Our target market is disadvantaged people living in rural 
Nebraska. This includes women and families who earn low to 
moderate income and Latinos who currently run or want to start 
a small business.
    To maximize client success, our Women's Business Center 
operates as a center without walls, which means we go to where 
the client is, both physically and educationally. We provide 
many services at the business location, and we meet at the 
client's level of understanding. We offer services both online 
and in person in evolving communities and designated 
opportunity zones.
    In order to help us succeed, the Committee can help 
facilitate this important work by supporting three key policy 
changes.
    First, permanently waive the 50 percent limit on pre- and 
post-loan technical assistant grant expenses for prospective 
borrowers. Naturally, providing the exact same amount of time 
on TA after a loan approval is not necessary when pre-loan 
training and education is effective.
    Next, it is important to fully fund the Women's Business 
Center program at $30 million in core funding, provide an 
additional $48 million COVID-related appropriation, and waive 
the match requirement until fiscal year of 2023. The increase 
in core funding for the WBC program would support the increase 
in clientele and services we are currently experiencing. 
Separately, the additional COVID relief-related funding and 
waived match requirement would extend the support provided in 
statute to help WBCs over the past year.
    With new business starts at an all-time high, demand for 
our services will grow, and these priorities would enable WBCs 
to continue the efforts we have adopted over the past year into 
fiscal year 2023, to support entrepreneurs in need.
    Finally, we encourage lawmakers to support funding for the 
Office of Rural Affairs at SBA. The number of Federal programs 
available to small businesses has increased over the past 18 
months. This requires development of new rules and regulations 
on a frequent basis.
    We rely on SBA.gov for these announcements, but simply 
placing new information on a website is not enough for those of 
us who spend so much time on the road and meeting with clients. 
Having a consistent, rural-focused resource at SBA can help 
ensure we know where to go with any questions or concerns.
    To conclude, I would like to thank you, and we appreciate 
the opportunity to share our perspective, and look forward to 
working with members of this Committee to develop and institute 
needed changes. Once again, thank you.
    Chairman GOLDEN. Thank you.
    Next, Mr. Challenger, we will hear from you for 5 minutes.

                 STATEMENT OF BRETT CHALLENGER

    Mr. CHALLENGER. Good afternoon. Thank you for calling this 
hearing, and it is a privilege to be here. I am Brett 
Challenger. I am the senior vice president of our Regional 
Agribusiness Banking Group for CoBank in Greenwood Village, 
Colorado. The bank provides loans, leases, export financing, 
and other financial services to agribusiness and rural power, 
water, and communications providers in all 50 States.
    CoBank is a proud member of the Farm Credit System, and 
also provides wholesale loans and other financial services to 
20 affiliated Farm Credit associations, serving more than 
75,000 farmers, ranchers, and other rural borrowers in 23 
States.
    We are immensely proud of the value and customer service we 
provide our customer owners across rural America. Financial 
strength and stability are critical to fulfill our mission to 
serve rural communities.
    Organized as a cooperative, CoBank's earnings go back 
directly to our customers, not outside shareholders. Over the 
past 5 years, CoBank has distributed $3.27 billion in patronage 
back to our customers across rural America, highlighting the 
enduring value of the cooperative model.
    March 2020 brought tremendous uncertainty to CoBank. Our 
board and management made decisions enhancing our ability to 
respond to the economic challenges COVID-19 brought to our 
customers.
    In April of 2020, CoBank and 52 other Farm Credit 
institutions mobilized to deliver Paycheck Protection Program 
loans. While a few Farm Credit associations had previously been 
Small Business Administration lenders, most, including CoBank, 
had not.
    I was fortunate to lead CoBank's team to stand up the 
delivery mechanism for this economic lifeline. CoBank's 
employees proceeded to help 318 customers obtain more than $418 
million in PPP loans. Systemwide, Farm Credit delivered $2.29 
billion in 51,760 PPP loans to customers across the country, 
saving well over 126,000 jobs in rural America.
    When we experienced challenges, the Office of Rural Affairs 
answered hundreds of questions via email and phone calls for 
us. They hosted two webinars for our customers to help navigate 
the loan application and forgiveness documentation. The staff 
went above and beyond while we at CoBank were delivering a 
program brand-new to us and also partnering with an agency 
which we had no familiarity with.
    Without the Office of Rural Affairs, we would not have been 
as successful in executing PPP loans or navigating our 
customers' forgiveness applications through the SBA process.
    A cooperative business model can be an answer to helping 
businesses get started. Lack of interested investors in rural 
businesses is not a new concept at CoBank. Over the last 
several years, we have developed and created a solution to 
address capital needs of small and emerging agriculture 
cooperatives.
    CoBank, like all institutions in the Farm Credit system, is 
closely regulated by the Farm Credit Administration, an 
independent Federal financial regulatory agency.
    Businesses in the early stage of growth do not 
traditionally meet underwriting guidelines. To address this, 
the CoBank board proposed a solution to FCA, creating a 
separate risk pool designed to provide more flexible financing 
for these cooperatives.
    FCA approved the proposal, and Co-op Start was launched in 
2012. Co-op Start provides flexible financing, up to $250,000, 
to early stage growth agriculture co-ops. Today, Co-op Start 
has been used by 23 different small cooperatives in 9 States, 
with a total of $2.7 million in commitments and loans and 
leases.
    CoBank is committed to fostering the creation of new 
cooperatives through our support of numerous education and 
technical assistant programs, but co-ops are not the only 
answer. CoBank understands that rural entrepreneurs need 
dependable sources of capital to grow their businesses. Senior 
debt may be available, but equity in junior capital remain more 
difficult to source. Few rural focused investment funds exist 
beyond those that focus on acquiring farmland.
    One type of equity investment that CoBank has made is with 
rural business investment companies licensed by USDA. Since 
2013, CoBank has committed $154.5 million to 10 private equity 
funds, funding over 70 rural businesses across the country.
    We are strong supporters of the Rural Capital Access Act 
introduced by Senators Thune, Shaheen, and Fischer. This 
legislation encourages small business investment companies to 
invest in rural businesses while also allowing RBICs who do not 
currently receive Federal appropriation to access leftover 
funds from the SBIC program.
    We think collaboration is important in rural America. And 
at a time when rural communities are doing their best to 
recover from COVID-19 pandemic, we encourage more attention and 
investment into their longevity and success.
    I want to express my strong support for the SBA Office of 
Rural Affairs and thank them for their support through our 
efforts through the PPP. Thank you.
    Chairman GOLDEN. Thank you.
    And, Mr. Crawford, we will have you wrap up the opening 
part here with your 5 minutes.

                 STATEMENT OF ALAN M. CRAWFORD

    Mr. CRAWFORD. Thank you.
    Good afternoon, and thank you for taking the time to listen 
to the voice of small business.
    Rangaire Manufacturing Company has been in business since 
1948, and is located in Cleburne, Texas, a small community of 
about 30,000 people, just south of Dallas-Ft. Worth. We are a 
classical manufacturing facility where we punch, form, paint, 
and assemble steel and plastic products for the residential 
housing market.
    It has endured many changes in ownership, product lines, 
and economic challenges. During the economic turmoil and 
housing crisis of 2007 and 2008, the parent company of Rangaire 
consolidated many of their operations into our plant in 
Cleburne. I ran the operation for them when we transitioned 
from manufacturing ventilation products to medicine cabinets.
    When the product line continued to struggle, I purchased 
the business from my employer, and in January of 2014, started 
my entrepreneurial dream of owning and operating a 
manufacturing business.
    My parents were both public school teachers. My father died 
when I was in high school, and my mother supported our 
household the best she could. With financial help from family, 
bank borrowings, savings, lots of hard work, and mostly God's 
providential hand, my employees and I have been able to make 
this opportunity grow and eke out a profit. At the time, we 
saved about 55 jobs.
    Today, we make products that support single family, 
multifamily, and military housing all around the world. We have 
more than 300 customers in all 50 States and Canada. Our sales 
have grown more than 30 percent. We have just under a hundred 
employees.
    The savings from the 2017 tax cuts allowed us to invest in 
the business which contributed to this growth until COVID hit. 
While we took a significant hit to sales early in the pandemic, 
we were able to mitigate the impact to the business and ended 
2020 with sales essentially flat from 2019.
    We utilized PPP funds to maintain our workforce, pay 
bonuses, and extend paid leave so that our employees could take 
the time to deal with COVID in their own personal way.
    Lately, the current economic environment has proved to be 
even more challenging than the pandemic. Our product line is 
not very glamourous, has low margins, and is very fragmented 
with lots of competition. Our greatest competitive threat is 
from low-cost foreign manufacturers or large domestic producers 
that have a much broader product offering and are better 
capitalized.
    Tariffs imposed on foreign competitors have helped us 
immensely, and delays in ocean freight and other logistical 
problems have driven even greater demand for our products. It 
is a good problem to have.
    However, the surge in commodity pricing has been nearly 
impossible to get in front of. Our material components, such as 
steel, corrugated, and plastic, have seen cost increases from 
15 to 40 percent. We don't enjoy much pricing power on our 
products, and, consequently, our margins and cash flow are 
severely challenged in spite of the growth in top-line revenue.
    Other concerns arising this year have been supply 
shortages, longer lead times, and difficulty in finding labor. 
Labor has been a significant challenge in both finding adequate 
participants and meeting demands for higher wages. We are 
compelled to work overtime, which drives up labor cost and 
decreases productivity. These challenges have made it difficult 
to meet our customers' expectations, and we risk losing them to 
other suppliers. Unlike businesses with proprietary products, 
our customers do have a choice.
    Looming large is the uncertain but promised tax increases 
from the current administration. I am concerned about losing 
the benefit of the bonus depreciation for capital investments.
    Texas' extraordinary population migration is causing real 
estate values to explode. The real estate assessed value on my 
business property has more than doubled, another unplanned tax 
hit.
    We continue to deal with the burden from the ACA, with 
increasing costs of mandated health insurance. This regulation 
is a significant burden to a company the size of mine as we are 
just over the threshold to require company-furnished health 
insurance but still so small that these costs are a major blow 
to our bottom line.
    I absolutely love being a small business owner, but I have 
to say, I lose a lot of sleep when thinking about making 
payroll, trying to mitigate cost increases and margin pressure.
    The impact of COVID has proven to me that businesses can 
survive and even thrive if we are allowed to pivot and 
innovatively solve problems. The sad truth over the last year 
has been that businesses that have failed, in most cases, is 
not a result of their own decisions but on edicts and mandates 
from local, State, and Federal Governments.
    Thank you again for your time today.
    Chairman GOLDEN. Thank you very much.
    We will now go ahead and move to Q&A. I will go ahead and 
start things off.
    Mr. Challenger, I wanted to ask you first a little bit. You 
talked about how the Office of Rural Affairs helped you as you 
were working to stand up something completely new at CoBank, 
which was getting involved in SBA lending and specifically how 
to help your clients accessing the Paycheck Protection Program.
    How did you find out about the Office of Rural Affairs? Did 
they come to you? Did you reach out to them? How did that 
relationship start?
    Mr. CHALLENGER. Thanks for the question. It was such a 
fast-moving process, and if you remember, when the PPP program 
was started, when it first opened, we weren't a licensed lender 
yet. We were not an SBA lender. We were still trying to get our 
license. So through that effort and pushing to get our license, 
we made contact with several people through SBA and were 
connected with the Office of Rural Affairs and put in touch 
with them.
    Chairman GOLDEN. That is very helpful. Thank you. And most 
of that was--I mean, were you working directly with people over 
the phone or by email? You mentioned they did a couple of 
webinars kind of training to help you and your staff know how 
to access these loans?
    Mr. CHALLENGER. Yes. Thank you for the follow-on question. 
Yes, the staff there, we worked with, Jeff, Renee, and Eric. 
They were on the phone with us and answered, I don't know, 200-
plus emails between me and my colleagues, just navigating 
either the SBA system or the rules of the PPP program.
    They also hosted, with our help, two webinars for over 600 
of our customers. Now, we didn't make PPP loans to all those 
customers, but they were also customers of ours. So they may 
have gotten a PPP loan through another financial institution, 
but the Office of Rural Affairs was instrumental in helping all 
of our customers, those 600.
    They followed up with--if they didn't know the answer to a 
question, they followed up within 24 hours and got that 
assistance from a technical perspective to our customers.
    Chairman GOLDEN. [Inaudible] I guess just another followup. 
Setting aside the PPP loan program, as you look at CoBank's 
work with your clients going forward, how might the Office of 
Rural Affairs continue to be helpful in your mission within the 
Small Business Administration?
    Mr. CHALLENGER. Yes, thank you for the question. The health 
of rural communities is really important, and our efforts are 
somewhat limited and our scope is limited. And so when we bring 
partners, if you will, to the table, like the SBA and the 
Office of Rural Affairs, the--I guess the ability to deliver 
value to those constituents in rural communities just continues 
to increase.
    Our knowledge through the PPP program, our knowledge of 
SBA, and now our contacts with the Office of Rural Affairs will 
just enhance the ability to do that.
    Chairman GOLDEN. Mr. Ohle, you talked a little bit about 
technical assistance partners. Can you maybe spend a little bit 
of time talking about the specific examples of technical 
assistance that has been helpful to rural businesses? You know, 
maybe you could also even just talk about this in the context 
of PPP and, you know, if you could just add in how can the 
Office of Rural Affairs help with this?
    Mr. OHLE. Yes. Technical assistance can range from a whole 
variety of needs for rural small businesses, anything from 
business planning to marketing, to identifying how to use 
online marketplaces to better sell and produce products.
    For us, through PPP, our two CDFIs provide direct technical 
assistance alongside the funding that they are providing so 
that they are ensuring those small businesses have the capacity 
and certainly can sustain operations moving forward. And so for 
us, a huge piece of that puzzle is pairing funding alongside 
technical assistance.
    And the Office of Rural Affairs, we reached out to them as 
well when CDFIs were not qualified as PPP lenders to help 
advocate for that specific policy. That change was made, which 
obviously helped rural and Tribal areas across the country to 
access the PPP funds in a much more expedited process.
    Chairman GOLDEN. Thank you very much.
    Just seeing that I have only got about 20 seconds left, I 
will go ahead and reserve further questions for the panel 
later. I will now recognize Mr. Williams for 5 minutes.
    Mr. WILLIAMS. Thank you, Mr. Chairman.
    Today's hearing is all about small business recovery, which 
is why I find ironic since my colleagues on the left are also 
pushing for tax policies that will totally harm and hurt Main 
Street America.
    The Biden administration has proposed tax hikes to pay for 
the American Families Plan, to advance the left's climate and 
social agenda, which will ultimately be financed on the backs 
of small business.
    Under the proposal, businesses organized as C corporations 
would see a tax increase from 21 to 28 percent. That is a lot. 
And considering there are roughly 1.4 million small businesses 
organized as C corps, and they employ almost 13 million 
Americans, this dramatic increase will hurt small businesses 
just as they begin to recover from COVID-19 and it will cost 
jobs.
    The American Families Plan would also increase the 
individual tax rate, which also hurts small businesses who are 
structured as pass-through entities. So if we want to help 
small businesses recover, we cannot--I repeat--cannot be 
increasing taxes.
    So, Mr. Crawford, can you talk about the long-term 
consequences on a small business like yours, and even mine, in 
the manufacturing sector, if these tax hikes will be signed 
into law? And do you agree that tax cuts and less regulations--
that is the fix. We can talk all day long about this, but that 
is the fix to save rural America and small business.
    Mr. CRAWFORD. I think what most people forget and don't 
hear in the news is that most small businesses have very, very 
thin margins. And when you are talking about a 2 or 3 percent 
net profit margin on a business, any increase in an income tax, 
coupled with all the other taxes that may come in--I mentioned 
property taxes--that impact local business, small business as 
well, that can translate to 30, 40, or 50 percent of your final 
net income, which is a big blow to a small business.
    So we see in the news of companies making a ton of money, 
but we never hear about the private businesses because that 
information is just not published. But it is a huge impact and 
a big fear of just any increase in that tax rate can be a huge 
blow to a small business.
    Mr. WILLIAMS. Just by talking about President Biden's 
potential tax hike, small business owners are on the defense. 
With looming threats of nearly doubling the capital gains tax, 
I have already spoken to businesses who are changing their 
operations and putting off investments because they are unsure 
what the Tax Code might look like in a year.
    Now, these are ridiculous increases--there is no question 
about it--and these increases will reduce long-term investments 
since there will not be the same profit incentive for those 
people willing to take a risk and bet they will be rewarded in 
the future. Our Tax Code should focus on getting people to 
invest, not to be penalized for their success.
    So, Mr. Crawford, have any of your day-to-day business 
decisions already changed due to the uncertainty and concerns 
that tax hikes, like we have talked about, may come to 
fruition?
    Mr. CRAWFORD. It is incredible that you ask that question. 
We have actually been reviewing some capital purchases over the 
last 3 or 4 months that are significant purchases for us to 
invest in our business.
    We did that last year, made a significant investment in 
some equipment. We wanted to do the same thing this year, but 
frankly, with the state of the business, our cash flow impact, 
the concern over increases in tax rates coming up probably 
sooner rather than later, has put all of that on pause.
    Our reaction to that is, we need to hold on to cash. We 
need to be concerned about just margins in particular. And so 
the risk involved with investing in capital in an uncertain 
future is just too great right now. It is more of a wait-and-
see.
    Mr. WILLIAMS. Yeah. You are playing defense just on what 
you hear.
    Real quick while my time is going, can you discuss the 
workforce issues that you have experienced once the pandemic 
began to subside?
    I mean, here we are paying people to sit on the couch, 
paying people not to work. In Texas, as you know, we have 
stopped that and we have seen some movement. But why do you 
believe small businesses are still struggling to find workers?
    Mr. CRAWFORD. I do think it is a reaction to the demand 
that we have seen, where our demand for employees has grown 
significantly, but there is an awful lot of people out there 
that aren't ready, for whatever reason, or don't want to come 
back to work.
    And I do believe that part of that is they have funding to 
not work, whether that is extended unemployment benefits. We 
are about to launch extended childcare credits. That is going 
to be a significant cash flow to people that is in our 
demographic of people we hire for our jobs.
    And I believe that the difficulty is, there is just not a 
pool of available workers that are willing and ready to come 
back to work.
    Mr. WILLIAMS. Well, thank you.
    And my time is up, Mr. Chairman. I yield back.
    Chairman GOLDEN. I appreciate that.
    Do we have any other members on the line right now? I 
noticed a few. They look like they might have dropped off.
    All right. Well, I am going to ask a few more questions 
then.
    Mr. Crawford, actually I was just listening to your 
testimony, wanted to ask--you used the Paycheck Protection 
Program. Did you end up using a lender that you had a 
preexisting relationship with or did you end up going to a new 
lender?
    Mr. CRAWFORD. I did utilize that program, and it was with 
an existing lender, which was a large regional bank.
    Chairman GOLDEN. Do you have--I mean, I know that that was 
a really successful program and one that was really critical to 
maintaining staffing for a lot of businesses, including your 
own. I am sure you were appreciative of that.
    In general, do you have any feedback, as a business owner, 
about the program? Was it accessible and easy? Was it at times 
difficult as you were going through the application process, 
trying to figure out the rules?
    I know Congress kept changing the guidelines, and then, of 
course, you had to look at forgiveness. And I don't even know 
the status of your own loan, has it been forgiven or not. You 
may not want to get into that. But any feedback for us in 
general about how that went?
    Mr. CRAWFORD. It was very frustrating, to be truthful. I 
was in the first wave of it, so there was an extremely high 
amount of demand for that, and so there was a time-critical 
element to try to get all of your application in. And the fact 
that the rules kept changing, the interpretation kept changing, 
it was really a stressful moment of were the funds going to be 
available by the time we could figure out how to do the 
application and get that submitted and get it approved.
    So, yeah, it turned out to be a good program, but getting 
there was quite a challenge.
    Chairman GOLDEN. Yeah. It is very stressful, I am sure, 
especially you are just, you know, wondering how beneficial is 
this going to be at the end of the day and is it going to 
actually help me keep these people on the payroll.
    So did you find that your lender was able to help you as 
all these changes and guidelines were going on and advise you? 
Did you have to figure it out, you know, kind of put in your 
own time into that, or, you know, who did you depend on to help 
you through that process?
    Mr. CRAWFORD. As it turned out, the bank was--had about as 
difficult of a time. You know, they were trying to navigate the 
rules for them from the lender perspective. And so, honestly, 
it was such a large bank that I didn't get a lot of hand-
holding through that process and had to answer the questions 
mostly on my own.
    Chairman GOLDEN. Yeah. And I am sure [inaudible]. I am glad 
to hear that it ultimately worked out in a good way.
    I am not, you know, thoroughly familiar with Texas--
although I am going to be doing a visit to Texas with one of my 
colleagues in a bipartisan exchange program. He is going to 
come to me, and I will come to Texas later on. But I think that 
won't be till sometime next year.
    But I see that you are outside of the Dallas-Ft. Worth 
metro area. I think there is a Small Business Development 
Center, a partner with the SBA, about an hour away from you. 
Have you ever heard of them or worked with them at all?
    Mr. CRAWFORD. I have heard of that group several years ago, 
but I have not personally worked with them.
    Chairman GOLDEN. Yeah. And anything through like the USDA 
and some of the programs they have for small manufacturers?
    Mr. CRAWFORD. No, nothing with the USDA.
    Chairman GOLDEN. Just curious.
    You know, one of the things you said that really got my 
attention, here in Maine, the Small Business Development 
Centers worked with a lot of small business owners at the 
beginning of the pandemic to help them pivot. You know, they 
said, jeez, you know, maybe if your whole product line is 
getting shut down, maybe we can pivot you into, you know, 
something different here and, you know, try and make the--you 
know, make something good out of a bad situation, which is, you 
know, I think at the heart of what you were saying about 
entrepreneurs being unleashed to have the flexibility to make a 
change and survive.
    But it certainly, I think, was helpful for them to have a 
little bit of assistance in that. Sometimes having another--you 
know, someone who has run a business in the past, you know, to 
step in and just help you with some business counseling can 
help you. But that is kind of what is at the heart of the SBDC 
program, but also when we are talking about the Office of Rural 
Affairs today.
    Could you see yourself ever using a program like that that 
is, you know, free to you through the SBA, or in general, you 
know, do you think that you got all the capacity you need in-
house?
    Mr. CRAWFORD. Well, I would certainly say that we don't 
have all the capacity we need. I am constantly looking for 
input, sources of information to improve my business operation. 
So I would definitely consider any of the sources that are 
available to us to improve our operations.
    Chairman GOLDEN. Well, thank you for that. I appreciate it.
    Mr. Williams, do you want to ask any follow-up questions? I 
can give you another 5 minutes.
    Mr. WILLIAMS. Yes. Thank you, Mr. Chairman.
    I would ask Ms. Campos this just kind of generically 
speaking. Ms. Campos, I am a business owner. I employ hundreds 
of people down here in Texas, and been in business 51 years. 
And I appreciate what you are doing. But do you agree with me 
and many--and most small business owners that when we talk 
about these tax increases, it is detrimental to small 
businesses that are wanting to get started again, that tax cuts 
really put more money in the hands of these small business 
owners so they have rainy-day money, as we have heard Mr. 
Crawford talk about? Rather than talking about tax increases, 
tax cuts still work the best.
    Ms. CAMPOS. I would like to say, in working with small 
businesses, that is an issue that we do come along every day. I 
think taxes are always an issue, regardless, to every business 
owner. But I would have to agree with the overall----
    Mr. WILLIAMS. Okay. I think it is normal.
    Ms. CAMPOS. Yeah.
    Mr. WILLIAMS. If we have more money to these businesses, 
the more things we can do.
    Ms. CAMPOS. Absolutely.
    Mr. WILLIAMS. Mr. Crawford, you and I know there are a lot 
of us face rising costs every single day and price pressures 
because you operate on a thin margin, as I do--you have talked 
about that--in my business. What tools do you feel like you 
have at your disposal to react to these pressures from price 
increases and, quite frankly, inflation that we see?
    Mr. CRAWFORD. As a small business owner, it is a little--we 
really don't have a lot of tools to leverage against big 
suppliers. We generally have to take what they tell us, because 
we are not big enough to really leverage our cost power and 
pricing power with our vendors. So, really, our only reaction 
is to either cut our costs in other ways, which is----
    Mr. WILLIAMS. Right.
    Mr. CRAWFORD.--maybe labor costs or other costs, and then 
try to pass that on to our customers with price increases.
    Mr. WILLIAMS. Lots of times, you and I know, you can't pass 
it to the customer, and you can only cut expenses so much to 
make a profit. So that is why--that is why the tax cuts we had 
in 2016 really worked, enabled people to take risks and get 
rewarded.
    And I want to say this to everybody, and certainly the 
Chairman, about the SBA. You know, my goal is, I want the SBA 
to be the small business provider for small business, what they 
are, and I hope down the road we can begin to do some things 
together that will let the SBA think more like a small business 
owner rather than a government employee. And I think that will 
help our small business people too.
    And I would just say this in closing, Mr. Challenger, I am 
one of your customers. I am in the cattle business back here in 
Texas. And the PPP program, at the end of the day, worked. 
There was some confusion in the beginning, but I think all of 
us would agree that the PPP program through Treasury allowed us 
to get a lot of money out because I don't know another system 
of banking or credit union system that anywhere in the world 
could have done what they did.
    So it did work, but we don't want people to rely on 
government assistance. That is why we need to get back to 
cutting taxes and let small business create their own cash 
flow.
    With that in mind, Mr. Chairman, I yield my time back to 
you.
    Chairman GOLDEN. I think just to close things up with the 
panel and just think about what Mr. Williams just had to say, 
talking about the SBA really having a focus on the small 
business owner, not just from a lending perspective, but some 
of these other great programs we have, from Small Business 
Development Centers and Women's Business Centers and an office 
like the Office of Rural Affairs, which is really the subject 
of the hearing today, is how can we make sure that the Office 
of Rural Affairs can be there to be a voice and an advocate for 
small businesses but, in particular, small businesses residing 
in rural areas.
    I guess I will just ask, how do each of you--and some of 
you have more experience than others with the SBA--but how do 
each of you feel that the Office of Rural Affairs could be 
useful to you and to your clients, given your experiences with 
them or just, you know, given your experiences in general as a 
business owner?
    I think I will start with Mr. Challenger, and then we can 
go to Mr. Ohle, Ms. Campos, and then Mr. Crawford, if you have 
any closing thoughts on it.
    I will start with you, Mr. Challenger, because I know you 
have actually had a pretty active interaction so far with staff 
at the Office of Rural Affairs.
    Mr. CHALLENGER. Yes, thank you for the question. My 
response is going to be a--have a couple elements to it. I 
think that the SBA brings one of the tools, if you will, in the 
toolbox to small businesses, whether they be rural or urban. I 
think particularly in rural communities, like Ms. Campos has 
expressed, they need technical assistance and they need 
additional attention often times, because they don't have 
necessarily access to all of the other, I guess, expertise that 
you might find in a larger community.
    So when I look at this as the Small Business 
Administration, SBA is one piece of the whole pie, if you will. 
The USDA brings programs to the table, they are all different. 
As we say at CoBank, you know, more options for customers is 
better and more options for communities is going to be better.
    And so that the SBA programs and the Office of Rural 
Affairs brings a number of expertise to the table which helps 
small businesses. They may not be the solution, but there are 
other solutions around, and the more collaboration and sort of 
coordination we have, knowledge across agency products and 
things, I think, will help continue to facilitate progress in 
rural communities.
    Thank you.
    Chairman GOLDEN. Thank you.
    Mr. Ohle?
    Mr. OHLE. Thank you, Mr. Chair. I think in order to be 
effective, the Office of Rural Affairs, really, number one, 
needs to be fully staffed and have the capacity to address 
these issues, but it also has to have real authority to help 
expedite issues raised and address concerns of small businesses 
that are coming into the office.
    We also think, they should create some kind of advisory 
council or entity that really engages folks on the ground, 
people like Mr. Crawford and other small business owners, to 
make sure that they hear the voices of those communities and 
those small business owners.
    And, finally, the intergovernmental kind of connection 
between other agencies. Mr. Challenger talked about the USDA 
programs. Helping to understand the connection between small 
business growth, capital access, infrastructure like broadband 
and water and wastewater is really critical, and so also being 
that bridge between and among other Federal partners is 
critical.
    Chairman GOLDEN. Thank you.
    Ms. Campos.
    Ms. CAMPOS. Thank you. Thank you for the question. So I 
think in our work, we not--we not only service clients but we 
also act as a key resource for many municipal economic 
development organizations. So when a local chamber of commerce 
has a question about Federal programs, they often come to us. 
And I think this is where additional resources is a huge need, 
especially when it is something that is--within rural Nebraska, 
there is such a large distance or such a long drive time 
between one area to the other. So additional resources are 
essential to what we do.
    I also think this community-based need is a compelling 
reason to ensure a rural outreach at SBA as it is prioritized, 
and it is a priority that we do have. But I do think really as 
we work with clients and community partners and leaders, the--
currently, the Women's Business Center is one of the major SBA 
resources covering a large, large territory. So very crucial to 
have a rural affairs.
    Chairman GOLDEN. Well, one of my favorite things you 
pointed out is that you go to clients. You meet them at their 
business and meet them where they are at, instead of, you know, 
forcing them maybe onto, you know, email or some platform they 
are not familiar with or, worse, having to drive hours when 
they really should be focusing on starting up a business or 
running a business, although there are resource partners that 
are able to get out in the field and go right to the business 
owner, see the business firsthand too.
    Mr. Crawford, any--anything that you want to add just about 
how an office like this might be helpful in rural, you know, 
business economic development?
    Mr. CRAWFORD. Well, just real quickly, I do--I do think the 
SBA and its branches have a very valuable role in supporting 
small business in small communities. I would say I am a little 
hesitant, when we talk about growing organizations in 
government, that typically is not very efficient, an efficient 
use of dollars. So I do think they have a role, but I agree 
with Representative Williams that you got to fund those things, 
and the taxes are just a huge problem to grow government in 
order to pay for that. The tax increases are a problem.
    Chairman GOLDEN. Thank you. I appreciate that.
    You know, actually, I think the interesting part about the 
story of the Office of Rural Affairs in the context of this 
hearing is this is an office that was created by Congress under 
the first Bush administration back in the 1990s, really to 
bring an emphasis to the work of the SBA to rural businesses. I 
think there was a feeling back then, as I believe there is 
today, that a lot of times these, you know, programs end up not 
being fully accessible or even many rural businesses aren't 
even aware that they are there and how programs or lending 
opportunities or services might actually be available to them. 
Yet they are paying tax dollars into these SBA programs. 
Shouldn't we make sure some of that benefit returns back out to 
rural communities?
    You know, a number of us on this Committee in the last 
Congress in 2019 brought this to the attention of President 
Trump's administration. We were very pleased how responsive 
they were to agree with us that it was unacceptable that this 
Office of Rural Affairs existed in the law, in statute at SBA, 
but was completely unstaffed, essentially ignoring the mandate 
from Congress to ensure that rural communities were getting a 
focus and had a voice in the SBA.
    He very quickly worked to put in an acting director and 
some staff who ultimately were there to work with Mr. 
Challenger, as an example, in the midst of a pandemic that 
brought a lot of challenges to businesses. Who knows how many 
jobs, you know, were saved or benefited directly from the 
assistance that came out of the Office of Rural Affairs at that 
time. I think, you know, the timing was fortuitous. But I don't 
want to see it end there. I would like to see it, you know, be 
successful moving forward. Really unfortunate that for over, 
you know, a decade, a decade and a half, the office was just 
allowed to fall by the wayside.
    But I know what you mean, Mr. Crawford, and, you know, we 
are trying to get a lot out of very little here. Our bill that 
we are currently talking with the minority on--and I am always 
looking for opportunities to work with more colleagues like Mr. 
Williams--would bring these--this focus into the SBA for as 
little as $3 million a year, which for a small business owner, 
people don't blink an eye at $3 million but in the context of 
the Federal budget.
    So I think we can do a lot of good for rural businesses 
with a very well, you know, thought-out office with a clear 
mission and some talented staff. So I think it is a worthy 
investment. I hope you all agree with me, and I look forward to 
working with Representative Williams, Representative Hagedorn, 
when we get him back, and with the rest of the Committee to try 
and do something to the Office of Rural Affairs in the years 
ahead and [inaudible] for small business owners around the 
country.
    Mr. Williams, any closing remarks on your end?
    Mr. WILLIAMS. No.
    Chairman GOLDEN. I appreciate your time today.
    Mr. WILLIAMS. I think it has been a great hearing, 
Chairman. And I want to thank again the witnesses for taking 
time out of their busy day to come talk to us about this.
    There are some common-ground issues in Washington, believe 
it or not, and I think we have some common ground here. The 
bottom line is we all realize, and one of you touched on it, 
that small businesses, half the income, half the workforce, 
even more than that, is what generates this great economy, and 
we need to lessen the burden on small business, not increase 
it. That is going to be my goal and others' too. So thank you 
again for taking time, and you, Mr. Chairman, for holding the 
hearing today.
    I yield back.
    The CHAIRMAN. Thank you, sir.
    And thanks to all of our panelists for joining us today. We 
appreciate your testimony and the answers you have provided to 
our questions.
    With that, I would ask that there be unanimous consent that 
members have 5 legislative days to submit statements or 
supporting materials for the record.
    Without objection, so ordered.
    If there is no further business before the Committee, we 
are adjourned. Thank you all very much.
    [Whereupon, at 2:07 p.m., the subcommittee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
